wr

C@OCKLE

: E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com
Est. 1923

1-800-225-6964 Web Site

(402) 342-2831 . www.cocklelegalbriefs.com
Fax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214

No. 19-423

BRIAN KIRK MALPASSO and MARYLAND
STATE RIFLE AND PISTOL ASSOCIATION, INC.,
Petitioners,
Vv.
WILLIAM M. PALLOZZI, in his official
capacity as Maryland Secretary of State Police,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURTAE
FIREARMS POLICY COALITION, FIREARMS POLICY F OUNDATION, CALIFORNIA GUN
RIGHTS FOUNDATION, MADISON SOCIETY FOUNDATION, AND SECOND
AMENDMENT FOUNDATION IN SUPPORT OF PETITIONERS in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
5991 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 30th day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths,

PATRICIA BILLOTTE

‘
General Notary oe Mitte, yf C _ fh J,
State of Nebraska > °
My Commission Expires Nov 24, 2020 «

Notary Public Affiant

 

 

38833
